No. 20-1784
In the

Supreme Court of the United States
__________________
STATE OF OHIO,
Petitioner,
v.
DANIEL DEUBLE,
Respondent.
__________________
On Petition for Writ of Certiorari to the
Court of Appeals to the State of Ohio,
Eighth Appellate District

__________________
BRIEF IN OPPOSITION TO PETITION FOR
WRIT OF CERTIORARI
__________________
JUSTIN M. WEATHERLY, Esq.
Counsel of Record
Reg. No. 0078343
Henderson, Mokhtari &
Weatherly
1231 Superior Avenue East
Cleveland, Ohio 44114
(216) 774-0000
jw@hmwlawfirm.com
Counsel for Respondent
July 23, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . iv
QUESTIONS FOR REVIEW . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISIONS . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
THE CASE PRESENTS NO IMPORTANT
FEDERAL QUESTION OF UNSETTLED LAW
AND THUS DOES NOT WARRANT A GRANT
OF CERTIORARI. . . . . . . . . . . . . . . . . . . . . . . . . 9
I. PROBABLE CAUSE IS A WELL-SETTLED
STANDARD; ITS APPLICATION TO THIS
CASE DOES NOT RAISE ANY NEW FEDERAL
QUESTIONS AND THUS DOES NOT
WARRANT THIS HONORABLE COURT’S
REVIEW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
A. The Eighth District Court of Appeals applied
the correct standard–probable cause–to
determine that officers unlawfully arrested
Respondent . . . . . . . . . . . . . . . . . . . . . . . . . . 11
1. Respondent was arrested, not merely
detained. . . . . . . . . . . . . . . . . . . . . . . . . . . 12
2. The criminalization of online child
enticement and the practice of
“catfishing” do not implicate any new
questions of when probable cause is
required to make an arrest. . . . . . . . . . . . 13

ii
3. The Eighth District did not alter the
probable cause standard or create an
unnecessary burden for enforcing
online child enticement laws . . . . . . . . . . 15
B. The Ohio Eighth District Court of Appeals
appropriately applied the facts of
Respondent’s case to well-established
probable cause standards, reasonably
concluding that law enforcement did not have
probable cause to arrest Respondent at the
time he was seized. . . . . . . . . . . . . . . . . . . . . 16
II. THIS CASE DOES NOT PROVIDE THE
COURT THE OPPORTUNITY TO
DETERMINE WHETHER A SUSPECT
EXERCISES AN EXPECTATION OF PRIVACY
OVER HIS PHONE’S NOTIFICATION
SCREEN; THIS QUESTION IS MOOT
BECAUSE
THE
EVIDENCE
IS
INADMISSIBLE AS THE FRUIT OF
RESPONDENT’S UNLAWFUL ARREST. . . . . 20
A. The basis for inadmissibility lies in the
unlawful nature of Respondent’s arrest, not
in any expectation of privacy in his phone’s
notification screen. . . . . . . . . . . . . . . . . . . . . 20
B. The Eighth District did not address the
federal questions at issue in Brixen or in
Riley concerning mobile phone searches,
much less contradict or inappropriately
extend these holdings.. . . . . . . . . . . . . . . . . . 22

iii
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

iv
TABLE OF AUTHORITIES
CASES
Beck v. State of Ohio,
379 U.S. 89 (1964). . . . . . . . . . . . . . . . . . 11, 15, 16
Cleveland v. Morales,
8th Dist. Cuyahoga No. 81093, 2002-Ohio-5862,
(Ohio App. 8th Dist. 2002) . . . . . . . . . . . . . . . . . 12
Illinois v. Gates,
462 U.S. 213 (1983). . . . . . . . . . . . . . . . . 11, 13, 14
Ornelas v. United States,
517 U.S. 690 (1996). . . . . . . . . . . . . . . . . . . . . . . 15
Riley v. California,
573 U.S. 373 (2014). . . . . . . . . . . . . . . . . . . . 21, 22
State v. Deuble,
2020-Ohio-3970, at (Ohio App. 8th Dist. 2020)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7, 8, 12, 13
United States v. Brixen,
908 F.3d 276 (7th Cir. 2018). . . . . . . . . . . . . . . . 22
United States v. Medenhall,
446 U.S. 544 (1980). . . . . . . . . . . . . . . . . . . . . . . 12
Wong Sun v. United States,
371 U.S. 471, 479 (1963). . . . . . . . . . . . . . . . . . . 10
RULES
Sup.Ct. R. 10. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

1
QUESTIONS FOR REVIEW
I. Did law enforcement lack probable cause to
arrest Respondent at the time of his detention,
rendering inadmissible all evidence obtained as the
fruit of the unlawful seizure?
II. Did law enforcement conduct a search of
Respondent when viewing his phone’s notification
screen?
CONSTITUTIONAL PROVISIONS
The Fourth Amendment to the United States
Constitution provides:
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be
violated, and no warrants shall issue, but upon
probable cause, supported by oath or
affirmation, and particularly describing the
place to be searched, and the persons or things
to be seized.
U.S. Const. amend. IV.
The Fourth Amendment to the United States
Constitution is made applicable to the states through
the Fourteenth Amendment to the United States
Constitution, which states in part:
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and of the state
wherein they reside. No state shall make or
enforce any law which shall abridge the

2
privileges or immunities of citizens of the United
States; nor shall any state deprive any person of
life, liberty, or property, without due process of
law; nor deny to any person within its
jurisdiction the equal protection of the laws.
U.S. Const. amend. XIV, § 1.
STATEMENT OF THE CASE
By the officers’ own admission, law enforcement did
not know when they arrested Respondent whether the
individual they had in custody was the suspect they
were seeking for attempting to meet an alleged minor
for sexual purposes. At oral hearing, the lead detective
confirmed that law enforcement did not have probable
cause to arrest Respondent until after he was
handcuffed and surrounded by armed officers who took
possession of his phone and used it to confirm
Respondent’s identity. The lower appellate court
correctly deemed this a violation of Respondent’s
constitutional rights and reversed the decision that
denied Respondent’s originally filed Motion to Suppress
Evidence. The Supreme Court of Ohio subsequently
declined to accept jurisdiction of the appeal pursuant to
S.Ct.Prac.R. 7.08(B)(4), finding that the appeal did not
involve a substantial constitutional question, a
question of great general or public interest, or
otherwise warrant leave to appeal.
On August 30, 2018, special investigators with the
Cuyahoga County Prosecutor’s Office Internet Crimes
Against Children Task Force (“ICAC”) set up an
undercover operation to identify individuals seeking to
engage in sexual activity with minors. Investigator

3
Justin Rotili (hereinafter, “Investigator Rotili”) posed
as a 15-year-old girl using the social media application
“Whisper.” This app allows its users to remain
anonymous but specifically targets persons within a
similar geographic location. The information provided
by an individual user need not be at all accurate and
there is no available verification process.
Investigator Rotili used the avatar “bella_jane,”
listed as a fifteen-year-old female, to post a photograph
of a girl with a caption reading, “Bored!!!” Using the
avatar “EY,” Respondent initiated a chat with
“bella_jane.” According to “EY’s” profile, he was an 18to 20-year-old male from Summit County. (Tr. Pg. 42).
A series of messages and pictures were exchanged
between the two, most of which were sexual in nature,
none of which could be used to identify either party.
The two eventually agreed to meet in person for
purposes of sexual conduct.
“EY” and “bella_jane” agreed to meet at Kurtz Park
in Parma, Ohio at 10:00 a.m. (Tr. Pg. 62). Based on the
messages received up to this point, law enforcement
were led to believe that “EY” was an eighteen (18) year
old, thin, white male named “Gabe,” who would be
arriving at Kurtz Park at 10:00 a.m. in a green Honda.
However, based on the officers’ own testimony, none of
this information was believed to be reliable.
Question: So even when you get information,
sometimes you can’t trust it, right?
Answer: In certain times, yes, sir… (Tr. Pg.
163-164).

4
On August 31, 2018 law enforcement began
surveillance of Kurtz Park at approximately 9:00 a.m.
At 10:04 a.m., “bella_jane” asked “EY” if he was close.
(Tr. Pg. 68). Well after 11:00 a.m., “EY,” sent a
message to “bella_jane” indicating that he was there.
(Tr. Pg. 72). Once indicating that he was at the park,
“EY” sent only three more text messages prior to his
unlawful arrest.
Having no physical description or identifiable
photographs of “EY” and without observing a green
Honda in the area, law enforcement had no idea who
they were looking for or even if the suspect was
actually at the park. Investigators turned their
attention to the basketball court where the only two
men in the park were playing basketball independent
of each other. When questioned about this activity,
Investigator Rotili testified:
Question: …you were focused on the two people
that you saw at Kurtz Park, right?
Answer: Correct.
Question: And both of them were white males,
right?
Answer: Correct.
Question: Neither of them drove a green Honda,
right?
Answer: Correct.
Question: So as far as suspects, they both could
have been suspects, one of them could have been

5
a suspect and not the other, or neither of them
could have been suspects, right?
Answer: The guy on the right was not an 18 year
old male. He was in his fifties. But to answer
your questions, I guess both of them could have
been suspects. They were white males. That’s all
we were operating. (Tr. Pg. 167).
According to the police report, one of the observed
white males would walk over to his phone every so
often and appear to use his phone in some capacity
which allegedly correlated to “EY” sending a text
message over Whisper to “bella_jane.”
Question: And so in order to determine whether
or not one of them was, you relied solely on this
person’s interaction with his phone, correct?
Answer: Um-huh. And the fact that he told me
he was at the park. (Tr. Pg. 167).
However, “EY’s” statement that he was at the park
did not mean he was actually at the park; it could have
been a lie due to the capabilities of the app.
Question: It’s possible that “EY” could be saying,
I’m at park, and he could still be 50 miles away?
Answer: That is possible. (Tr. Pg. 169).
Though investigators admitted that they really had
no idea whether or not “EY” was even at the park,
much less whether he was one of the two men under
surveillance, Investigator Rotili and uniformed officers
of the Parma Heights Police Department arrested
Respondent after witnessing him in possession of his

6
phone on only three occasions, which corresponded to
messages received by Rotili’s avatar. Put simply, they
arrested the first white male they saw who checked his
phone a couple of times without having any idea
whether or not he might be “EY.”
Question: So based on the fact that Mr. Deuble
was at the park, and based on that you
witnessed him use his phone at least three
times, that was what caused you to decide to
have other units move in on Mr. Deuble, right?
Answer: Yes. (Tr. Pg. 173).
However, even after Respondent was in handcuffs
and being led away, Officer Rotili can be heard saying
on his body cam, “Is that the guy.” The audible
response from the assisting officer, “I don’t know.” See
Body Cam Footage at 00:04:53.
Question: And in fact when you approached the
scene after you were told to come to the park
because they had a suspect in custody, the very
first words uttered on your body cam, your
question, is that him. Response, I don’t know. Is
that not correct?
Answer: Yes
Question: So, you had no idea whether or not the
person you had in handcuffs was “EY”?
Answer: Correct. (Tr. Pg. 93).
Investigator Rotili and Detective Frattare didn’t
know whether the person they had in custody was in
fact “EY.” Meanwhile, Respondent was in handcuffs,

7
sitting on the ground and surrounded by a half dozen
armed and uniformed officers while his car and
personal belongings were being searched. Investigator
Rotili then picked up Respondent’s phone and sent a
text message from his avatar to “EY” to verify that
Respondent was the individual with whom he had been
corresponding.
This “test text” confirmed that
Respondent was “EY.” Rotili admitted that he may
have suspected Respondent, but had no reason to
believe Respondent was, in fact, “EY” until the “test
text” appeared on Respondent’s notification screen. See
Deuble, at 29.
Question: And it is that test text that you sent to
Mr. Deuble’s phone which confirmed that it
actually was his phone that was communicating
with the undercover avatar, correct?
Answer: I believe so.
Question: So, it wasn’t until that point that you
believed you had probable cause to arrest him,
correct?
Answer: Correct. (Tr. Pg. 115-116).
There were no intervening circumstances between
Mr. Deuble’s unlawful arrest and his subsequent
confession. Only after identifying Mr. Deuble as their
suspect through the test text did law enforcement
remove Mr. Deuble’s handcuffs and walk him to the
on-scene police van used for interviews. Inside,
Respondent was read his Miranda rights and told he
was free to leave. However, no reasonable person who
was handcuffed and forced into a van by police would
believe he/she was free to go. Certainly, Respondent

8
did not believe that he was free, regardless of what he
was told at the time of his interrogation, during which
he confessed to being “EY” and gave officers permission
to search his phone.
Respondent was released
following the interview.
On or about September 12, 2018, Respondent was
indicted on: Count One, Attempted Unlawful Sexual
Conduct with a Minor in violation of O.R.C. §§2923.02
and 2907.04(A), a felony of the fifth degree; Count Two,
Importuning in violation of O.R.C. §2907.07(D)(2), a
felony of the fifth degree; Count Three, Disseminating
Matter Harmful to Juveniles in violation of O.R.C.
§2907.31(A)(1), a felony of the fifth degree; and Count
Four, Possessing Criminal Tools in violation of O.R.C.
§2923.24(A), a felony of the fifth degree.
Respondent pled not guilty to the charges and, on
December 17, 2018, filed a motion to suppress, arguing
ICAC officers lacked probable cause to arrest him. The
State responded by arguing that Respondent’s arrest
was merely an investigatory detention for which
reasonable suspicion existed. The trial court found
that ICAC investigators did, in fact, arrest Respondent,
but concluded further that they had probable cause to
effectuate the arrest and denied Respondent’s Motion.
Respondent subsequently pled no contest to the charges
in the indictment and was sentenced.
On August 6, 2020, the Eighth District Court of
Appeals, in State v. Deuble, 2020-Ohio-3970 (Ohio App.
8th Dist. 2020), reversed the trial court, agreeing that
his detention was an arrest but holding that
Respondent’s arrest was not supported by probable
cause. Because no probable cause for arrest existed,

9
the court further held that Respondent’s phone was
illegally searched when police sent a confirmatory “test
text.” The ruling, however, was predicated on the
doctrine of the fruit of the poisonous tree. Once
Respondent was unlawfully arrested, any and all
evidence obtained subsequent to that arrest, which
included the unlawful confiscation of Respondent’s
phone, was rendered inadmissible pursuant to the
exclusionary rule. The appellate court made no
independent ruling, contrary to the State’s
misrepresentation of the written opinion, as to the
admissibility of evidence obtained from Respondent’s
notification screen. The State of Ohio submitted a
Memorandum in Support of Jurisdiction to the
Supreme Court of Ohio on November 5, 2020. The
Court entered a judgment on January 22, 2021
declining to accept jurisdiction of the appeal pursuant
to S.Ct.Prac.R. 7.08(B)(4), finding that the appeal did
not involve a substantial constitutional question, a
question of great general or public interest, or
otherwise warrant a leave of appeal. This timely
Petition for Writ follows.
ARGUMENT
THE CASE PRESENTS NO IMPORTANT
FEDERAL QUESTION OF UNSETTLED LAW
AND THUS DOES NOT WARRANT A GRANT OF
CERTIORARI.
The U.S. Supreme Court exercises its judicial
discretion to review a case only where compelling
circumstances require the Court’s involvement to settle
an important federal question. Sup.Ct.R. 10. The Court
may grant certiorari to review an important question

10
of federal law that has not previously been addressed.
Id. The Court may also review a case to address an
important federal question that has been decided
differently among different courts or in a way that
conflicts with this Court’s prior, relevant decisions. Id.
No such compelling circumstance exists in this case
to warrant this Honorable Court’s review. Appellant’s
first proposed question for review, whether law
enforcement had probable cause to arrest Respondent,
invokes issues of well-settled law concerning probable
cause. There is no need for this Court to re-litigate
these issues. Appellant’s second proposed question for
review, to wit, whether Respondent had a reasonable
expectation of privacy in his phone’s notification screen,
is moot. Evidence obtained pursuant to Respondent’s
unlawful arrest is inadmissible as the fruit of his
unlawful arrest; the question of whether law
enforcement’s actions constituted a search is irrelevant
to the inadmissibility of the evidence in the within
matter.
I. PROBABLE CAUSE IS A WELL-SETTLED
STANDARD; ITS APPLICATION TO THIS
CASE DOES NOT RAISE ANY NEW FEDERAL
QUESTIONS AND THUS DOES NOT
WARRANT THIS HONORABLE COURT’S
REVIEW.
Law enforcement must have probable cause to make
an arrest without a warrant. A warrantless arrest
without probable cause violates the arrestee’s Fourth
Amendment safeguards, and any evidence obtained as
the fruit of the unlawful arrest is inadmissible
pursuant to the exclusionary rule.

11
Wong Sun v. United States, 371 U.S. 471, 479, 484-486
(1963). Furthermore, probable cause must exist “at the
moment the arrest [is] made.” Beck v. State of Ohio,
379 U.S. 89, 91 (1964).
Consequently, evidence obtained subsequent to an
unlawful seizure cannot be used to establish probable
cause and justify the seizure.
Probable cause exists where the facts and
circumstances within the arresting officer’s knowledge
are “sufficient to warrant a prudent man in believing
that the appellant had committed or was committing
an offense.” Beck v. State of Ohio, 379 U.S. 89, 91
(1964). Probable cause must be based on “reasonably
trustworthy information.” Id. Consequently, in cases
where incriminating information comes from an
anonymous source, a totality of the circumstances
analysis is necessary to determine whether such
information can form the basis of probable cause.
Illinois v. Gates, 462 U.S. 213, 214 (1983). A totality of
the circumstances analysis may consider whether the
anonymously provided information can be corroborated
by an independent and reliable source. Id.
A. The Eighth District Court of Appeals
applied the correct standard–probable
cause–to determine that officers unlawfully
arrested Respondent.
First, Respondent was arrested, not merely
detained, and thus the Eighth District appropriately
applied the probable cause standard for an arrest
rather than the lower standard, reasonable suspicion,
required for a mere detention. Second, the challenging

12
nature of prosecuting online child enticement does not
diminish a suspect’s Fourth Amendment protections.
This Court has already addressed situations similarly
challenging for prosecutors and upheld probable cause
requirements in these as in all other cases. Third, the
Eighth District applied the existing probable cause
standard; it did not heighten or otherwise alter the
State’s burden.
1. Respondent was arrested, not merely detained.
Both the trial and appellate courts held that Mr.
Deuble was arrested–not merely detained–when law
enforcement placed him in handcuffs and surrounded
him with half a dozen uniformed and armed officers. In
support of its position, the Eighth District cited to
Cleveland v. Morales, 8th Dist. Cuyahoga No. 81093,
2002-Ohio-5862, at ¶15 (Ohio App. 8th Dist. 2002), and
concluded:
Upon review, we agree with the trial court that
Deuble was arrested. Deuble was handcuffed, seated on
the ground, and surrounded by four or more police
officers. Rotili picked up Deuble’s phone, which was on
the ground, and searched it. The officers then walked
Deuble, who was still handcuffed, to the van. A
reasonable person would not feel free to leave under
these circumstances. Therefore, this appeal is
concerned with probable cause, and the standard of
reasonable suspicion associated with a Terry stop is not
applicable here. See United States v. Medenhall, 446
U.S. 544, 554 (1980) (“a person has been seized within
the meaning of the Fourth Amendment only if, in view
of all of the circumstances surrounding the incident, a

13
reasonable person would have believed that he was not
free to leave”). Deuble, at ¶24.
Nevertheless, the State continues to erroneously
refer to Mr. Deuble’s arrest as a detention and an
investigatory stop throughout its Petition. The State
cites no fact or law to rebut the finding of not one, but
two lower courts identifying Mr. Deuble’s seizure as an
arrest, not a detention. Consequently, the State has
failed to show that Mr. Deuble’s arrest was actually a
detention, and the applicable standard remains
probable cause, not reasonable suspicion.
2. The criminalization of online child enticement
and the practice of “catfishing” do not
implicate any new questions of when probable
cause is required to make an arrest.
As the trial court articulated in its written opinion,
this Court has already considered circumstances under
which law enforcement receives incriminating
information from an anonymous source, and has set
boundaries on the use of such information to establish
probable cause. See Illinois v. Gates, 462 U.S. 213
(1983); App. to Pet. Cert. 29. This Court held that an
anonymous tip by itself is insufficient to support a
finding of probable cause. Illinois v. Gates, 462 U.S.
213, 214 (1983). Rather, a totality of the circumstances
analysis is necessary to determine whether such
information can form the basis of probable cause. Id.
Here, as in cases involving an anonymous tip, the
law is settled that the prosecution cannot rely solely on
minimal, vague information from an anonymous,
unreliable source to establish probable cause. The

14
lower courts accordingly applied this law to determine
whether the facts and circumstances known to the
officers at the time of Mr. Deuble’s arrest were
sufficient to establish probable cause.
The State’s argument that the criminalization of
online enticement creates new questions in applying
probable cause because of catfishing is thus unfounded.
This Court has already addressed the challenges of
relying on anonymous information and established the
totality of the circumstances analysis for assessing the
information’s reliability.
The State’s argument that the criminalization of
online enticement creates new questions concerning the
application of probable cause because of the anonymous
and inherently unreliable nature of leads is thus
unfounded. As demonstrated through the lower courts’
analysis using settled case law, this Court has already
established a framework for assessing and relying on
anonymous information to establish probable cause.
The lower courts appropriately applied this law to
assess the lawfulness of Mr. Deuble’s arrest.
The State’s second argument regarding catfishing –
which in effect asks this Court to suspend probable
cause requirements because they make enforcing child
enticement laws more difficult–is wholly unsupported
by case law and basic Fourth Amendment principles.
See Illinois v. Gates, 462 U.S. 213 (1983). The State
acknowledges in its Petition that the information it
received from EY online was unreliable,
uncorroborated, and in some cases outright false. Yet,
the State maintains that Mr. Deuble’s arrest was
lawful. Case law provides that information must be

15
“reasonably trustworthy” to form a basis for probable
cause, and thus the suspect’s certifiably unreliable lead
could not and did not establish probable cause. See
Beck v. State of Ohio, 379 U.S. 89, 91 (1964). By
asserting that Mr. Deuble’s arrest was nonetheless
lawful, the State effectively requests that this Court
suspend probable cause requirements to make law
enforcement easier. The State provides no support for
its argument, which is wholly unsupported by case law
and basic Fourth Amendment principles. Consequently,
this argument does not warrant this Court’s review.
3. The Eighth District did not alter the probable
cause standard or create an unnecessary
burden for enforcing online child enticement
laws.
The State’s position that the threshold for probable
cause has been substantively raised by the decision in
Deuble, supra, or that future ICAC investigations could
be hindered due to a suspect’s ability to disguise his
identity is plainly unsupported. Probable cause “is a
fluid concept revolving on the assessment of
probabilities and particular factual contexts not readily
or even usefully reduced to a neat set of legal rules.”
Ornelas v. United States, 517 U.S. 690, 698 (1996).
The probable cause calculus will always depend upon
the specific facts and circumstances surrounding a
particular case. Probable cause for a warrantless
arrest exists if all the facts and circumstances within
the officer’s knowledge were sufficient to cause a
prudent person to believe that the individual has
committed or was committing an offense. Beck v. State
of Ohio, 379 U.S. 89, 91 (1964). The decision in this

16
case alters none of these well-settled principles,
rendering it of insignificant public or general interest.
In as far as hindering future investigations is
concerned, nothing could be further from the truth.
Here, officers had the opportunity to delay
Respondent’s arrest until further evidence of his
identity could be confirmed. They could easily have
asked via Whisper, “Are you the young guy on the
basketball court wearing the white gym shorts?” After
receiving a response in the affirmative, they would
have known they had their man. Instead, they acted
prematurely, and violated Respondent’s constitutional
rights in doing so. If anything, the decision by the
Eighth District serves not to hinder future ICAC
investigations, but to protect future citizens from
unlawful arrests for otherwise innocent actions.
B. The Ohio Eighth District Court of Appeals
appropriately applied the facts of
Respondent’s case to well-established
probable cause standards, reasonably
concluding that law enforcement did not
have probable cause to arrest Respondent
at the time of he was seized.
Probable cause exists where the facts and
circumstances within the arresting officer’s knowledge
are “sufficient to warrant a prudent man in believing
that the appellant had committed or was committing
an offense.” Beck v. State of Ohio, 379 U.S. 89, 91
(1964). Probable cause must be based on “reasonably
trustworthy information.” Id.

17
Here, Investigator Rotili-the investigator
facilitating Mr. Deuble’s arrest-testified at oral hearing
that law enforcement did not have probable cause to
arrest Mr. Deuble when he was taken into custody. He
did not know whether or not “EY” was even at the
park, much less whether he was one of the two men
under surveillance. Investigator Rotili, along with
uniformed officers of the Parma Heights Police
Department, arrested Respondent after witnessing him
in possession of his phone on only three occasions
which corresponded to messages received by Rotili’s
avatar.
Question: So based on the fact that Mr. Deuble
was at the park, and based on that you
witnessed him use his phone at least three
times, that was what caused you to decide to
have other units move in on Mr. Deuble, right?
Answer: Yes. (Tr. Pg. 173).
Even after Respondent was in handcuffs and being
led away, Officer Rotili can be heard saying on his body
cam, “Is that the guy.” The audible response from the
assisting officer, “I don’t know.” See Body Cam Footage
at 00:04:53.
Question: And in fact when you approached the
scene after you were told to come to the park
because they had a suspect in custody, the very
first words uttered on your body cam, your
question, is that him. Response, I don’t know. Is
that not correct?
Answer: Yes

18
Question: So, you had no idea whether or not the
person you had in handcuffs was “EY”?
Answer: Correct. (Tr. Pg. 93).
This testimony confirms that Investigator Rotili and
Detective Frattare did not know whether the person
they had in custody was in fact “EY.” Meanwhile,
Respondent was in handcuffs, sitting on the ground
and surrounded by a half dozen armed and uniformed
officers while his car and personal belongings were
being searched. Investigator Rotili then picked up
Respondent’s phone and sent a text message from his
avatar to “EY” to verify that Respondent was the
individual with whom he had been corresponding. This
“test text” confirmed that Respondent was “EY.” Rotili
admitted that he may have suspected Respondent, but
had no reason to believe Respondent was, in fact, “EY”
until the “test text” appeared on Respondent’s
notification screen. See Deuble, at ¶29.
Question: And it is that test text that you sent to
Mr. Deuble’s phone which confirmed that it
actually was his phone that was communicating
with the undercover avatar, correct?
Answer: I believe so.
Question: So, it wasn’t until that point that you
believed you had probable cause to arrest him,
correct?
Answer: Correct. (Tr. Pg. 115-116).
The State’s assertion that law enforcement did have
probable cause to arrest Mr. Deuble at the time of the

19
arrest directly contradicts the testimony of its own
witness, the investigator on-scene during the arrest.
There are two explanations for this gross contradiction:
either the State knows that no probable cause existed
yet continues nevertheless to assert that it did, or it
does not believe Investigator Rotili is a prudent man.
If a prudent man, according to the State, would have
found probable cause, then Rotili’s testimony to the
contrary suggests that Investigator Rotili, a detective
with years of experience in this specific field, fails to
meet this standard.
The State’s Petition itself resolves this contradiction
by conceding that law enforcement relied solely on
inherently unreliable information as its basis for
arresting Mr. Deuble. In so doing, the State effectively
admits that law enforcement did not have sufficiently
trustworthy information on which to establish probable
cause. The State itself asserts that information from an
anonymous source online is inherently unreliable given
the prevalence of catfishing. Consequently, it concedes,
“Rotili and the other investigators had no reason to
know whether anything said by EY in the chat was
true.” Pet. Cert. 21. However, the State cites this
unreliable information to argue that officers had
probable cause to arrest Mr. Deuble. The State justifies
the officers’ actions by asserting that EY had to be one
of the two men in the park solely due to the fact that
EY told them he would be there. The State further
relied on unreliable facts when justifying the officers’
choice of Mr. Deuble over the other man in the park,
based solely on EY’s self-description as a young thin
white man. The State’s concession that it relied on
information known to be unreliable refutes the State’s

20
own argument, confirming that officers lacked probable
cause to arrest Mr. Deuble when he was taken into
custody.
II. THIS CASE DOES NOT PROVIDE THE
COURT THE OPPORTUNITY TO DETERMINE
WHETHER A SUSPECT EXERCISES AN
EXPECTATION OF PRIVACY OVER HIS
PHONE’S NOTIFICATION SCREEN; THIS
QUESTION IS MOOT BECAUSE THE
EVIDENCE IS INADMISSIBLE AS THE FRUIT
OF RESPONDENT’S UNLAWFUL ARREST.
A. The basis for inadmissibility lies in the
unlawful nature of Respondent’s arrest,
not in any expectation of privacy in his
phone’s notification screen.
Law enforcement had access to Mr. Deuble’s phone
and its notifications screen because they had arrested
him illegally. They unlawfully separated him from his
belongings and left them available for viewing and/or
searching. After handcuffing Mr. Deuble and leading
him away from his belongings, and as he sat on the
ground surrounded by half a dozen armed and
uniformed officers, Investigator Rotili had the
opportunity to pick up Mr. Deuble’s phone and look at
its notification screen. The Eighth District accordingly
found the evidence from Mr. Deuble’s notification
screen inadmissible as the fruit of the unlawful arrest.
App. to Pet. Cert. 17. Whether or not Respondent had
an expectation of privacy in his phone’s notification
screen is therefore irrelevant; the unlawful arrest
renders the evidence inadmissible regardless of

21
whether viewing the notification screen constituted a
search.
The State erroneously claims that the Eighth
District found the evidence inadmissible, holding that
viewing a phone notification screen constitutes an
unlawful search. The Court did not find the evidence
inadmissible as the fruit of an unlawful search due to
Mr. Deuble’s expectation of privacy of his phone's
notification screen, nor did it address the question of
whether viewing a notification screen constitutes a
search. The sole question the Eighth District reviewed
was “whether the trial court erred in denying
appellant’s motion to suppress when it found that
appellant’s arrest was predicated on probable cause.”
App. to Pet. Cert. 17. The opinion answers only this
question, holding that “police did not have probable
cause to arrest Deuble without a warrant, and evidence
obtained following his arrest, including information on
his cell phone and his confession, should have been
suppressed. Accordingly, we reverse the trial court’s
judgment.” Id.
The Eighth District did not address whether an
individual has an expectation of privacy in his phone’s
notification screen, this question is irrelevant to Mr.
Deuble’s case, and therefore Mr. Deuble’s case does not
provide this Court the opportunity to review this
question.

22
B. The Eighth District did not address the
federal questions at issue in Brixen or in
Riley concerning mobile phone searches,
much less contradict or inappropriately
extend these holdings.
This Court has held that an individual has a
heightened privacy interest in his phone. This
heightened privacy interest prohibits law enforcement
from searching a phone without a warrant, even on the
grounds of officer safety and/or preservation of
evidence. Riley v. California, 573 U.S. 373, 387-388
(2014). The Seventh Circuit narrowed the application
of this holding, finding that an individual does not have
a reasonable expectation of privacy in his phone’s
notification screen, and thus a warrant is not needed to
view the notification screen. United States v. Brixen,
908 F.3d 276, 280-281 (7th Cir. 2018).
Contrary to the State’s assertion, the Eighth
District did not address the questions at issue in Riley
or Brixen, much less extend or contradict these
holdings. As discussed supra, whether or not a
heightened privacy interest extends to a phone’s
notification screen is irrelevant to Mr. Deuble’s case
and formed no basis for the Eighth District’s holding.
App. to Pet. Cert. 17. Thus, this case does not provide
the Court the opportunity to review the question of
whether an individual has an expectation of privacy in
his phone’s notification screen.
CONCLUSION
Because Mr. Deuble’s case presents no important
federal question of unsettled law, this Court’s review is

23
unwarranted. First, probable cause is a well-settled
legal principle to which the Eighth District
appropriately applied the facts of this case. The State’s
second proposition of law is moot. The violation of
Respondent’s Fourth Amendment rights occurred prior
to the search of his mobile phone. Thus, the question of
whether the observance of a notification screen on a
phone constitutes a search was not an issue decided
upon by the lower courts herein. The State’s Petition
for a Writ of Certiorari should therefore be denied.
Respectfully Submitted,
/s/ Justin M. Weatherly, Esq.
JUSTIN M. WEATHERLY, Esq.
Counsel of Record
Reg. No. 0078343
Henderson, Mokhtari &
Weatherly
1231 Superior Avenue East
Cleveland, Ohio 44114
(216) 774-0000
jw@hmwlawfirm.com
Counsel for Respondent

